<html>
<title> - [H.A.S.C. No. 114-38] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2016 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 114-38]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

           FISCAL YEAR 2016 BUDGET REQUEST FOR NUCLEAR FORCES

                               __________

                              HEARING HELD
                             APRIL 15, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 



                       U.S. GOVERNMENT PUBLISHING OFFICE
94-749                      WASHINGTON : 2015                       
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="dbbcabb49bb8aea8afb3beb7abf5b8b4b6f5">[email&#160;protected]</a>  
                                     

                    
                    
                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Benedict, VADM Terry J., USN, Director, Strategic Systems 
  Programs
Harencak, Maj Gen Garrett, USAF, Assistant Chief of Staff for 
  Strategic Deterrence and Nuclear Integration, Department of 
  Defense
Hopkins, Dr. Arthur T., Acting Principal Deputy Assistant 
  Secretary of Defense for Nuclear, Chemical, and Biological 
  Defense Programs, Department of Defense
Scher, Hon. Robert M., Assistant Secretary of Defense for 
  Strategy, Plans, and Capabilities, Department of Defense

                                APPENDIX

Prepared Statements:

    Benedict, VADM Terry J.......................................    51
    Harencak, Maj Gen Garrett....................................    67
    Hopkins, Dr. Arthur T........................................    40
    Rogers, Hon. Mike............................................    21
    Scher, Hon. Robert M.........................................    23

Documents Submitted for the Record:

    November 2014 Message to the Force from the Secretary of 
      Defense....................................................    79

Witness Responses to Questions Asked During the Hearing:

    Mr. Ashford..................................................    84
    Mr. Bridenstine..............................................    84
    Mr. Garamendi................................................    83
    Mr. Franks...................................................    83

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................    90
    Mr. Forbes...................................................    89
    Mr. Garamendi................................................    88
    Mr. Rogers...................................................    87
           FISCAL YEAR 2016 BUDGET REQUEST FOR NUCLEAR FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                         Washington, DC, Wednesday, April 15, 2015.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. I want to call this hearing of 
the Strategic Forces Subcommittee of the House Armed Services 
Committee to order. And we are going to be called for votes at 
4:30, so in order to make sure we can get plenty on the record 
in the way of questions, the ranking member and I have agreed 
to dispense with opening statements. And we would ask each of 
the witnesses to submit theirs for the record.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 21.]
    Mr. Rogers. And we will go straight to questions after I 
introduce our distinguished panelists.
    We have with us today the Honorable Robert Scher, Assistant 
Secretary of Defense for Strategy, Plans, and Capabilities, 
U.S. Department of Defense; Dr. Arthur Hopkins, Acting 
Principal Deputy Assistant Secretary of Defense for Nuclear, 
Chemical, and Biological Defense Programs, U.S. Department of 
Defense; Vice Admiral Terry Benedict, Director of Strategic 
Systems Programs, U.S. Navy; and Major General Garrett 
Harencak, Assistant Chief of Staff for Strategic Deterrence and 
Nuclear Integration, U.S. Air Force.
    Mr. Rogers. And with that, I thank the witnesses for being 
here. I really appreciate the time and energy it takes to 
prepare for these hearings, and it matters a lot. We appreciate 
you making the time for us.
    [The prepared statements of Secretary Scher, Dr. Hopkins, 
Admiral Benedict, and General Harencak can be found in the 
Appendix beginning on page 23.]
    Mr. Rogers. And I'll recognize myself for the first round 
of questions. In the opening statement I submitted for the 
record, I mentioned a message to the force from then Secretary 
of Defense Hagel, which is in your binder. It is dated November 
of last year. And without objection I would like to enter that 
into the record. Hearing none, so ordered.
    [The information referred to can be found in the Appendix 
on page 79.]
    Mr. Rogers. The letter is a remarkable statement of defense 
priorities, and it makes clear that the nuclear deterrence is 
the Nation's number one priority defense mission. We have seen 
this priority reflected in statements from many senior DOD 
[Department of Defense] officials, and I believe we have 
started to see that priority reflected in budget requests. We 
have also seen it in Secretary Carter's policy documents, 
including his guidance for employment of the force and 
readiness availability priorities.
    Mr. Scher, from a policy perspective tell us why nuclear 
deterrence is the Nation's, quote, ``highest priority defense 
mission,'' close quote, as Secretary Hagel stated in his letter 
to the force.
    Secretary Scher. Certainly, Chairman, be happy to.
    So simply put, nuclear forces are critical to ensuring that 
we and our allies can effectively address threats, especially 
from nuclear states. That is the key focus. We believe that 
nuclear forces deter attack on the United States and our 
allies, and nuclear weapons are also critical to ensuring that 
adversaries don't think they can escalate out of a crisis if 
conventional forces aren't useful for them.
    So it is imperative that we maintain the nuclear forces, 
that we maintain the deterrence, that these forces are 
credible, effective, reliable, and can be used in multiple 
options across a range of activities should this so happen. We 
still believe that the use of nuclear weapons is unlikely, but 
we are not willing to take the chance that it couldn't happen 
because the catastrophic consequences should it.
    Mr. Rogers. Dr. Hopkins, please take a minute to explain 
what the Department sees as the key investment priorities for 
the nuclear deterrence mission in fiscal year 2016 and beyond.
    Dr. Hopkins. Thank you, Mr. Chairman.
    As noted in our written statements, I think you will see a 
fair amount of consistency there, the Department's priorities 
are for the sustainment and modernization of the complete triad 
of the full force. And that starts with the submarine force, 
the life extension program for the Trident II missile, and the 
bombers, the Long-Range Strike Bomber, as well as the cruise 
missile, Long-Range Stand-Off Missile.
    Along with that, we also are partnered with the Department 
of Energy. It is very important that our programs be 
synchronized so that the delivery systems and the weapons 
arrive at the same time.
    Mr. Rogers. This will be for Admiral Benedict and General 
Harencak. In February, Admiral Haney told this committee that 
DOD spends less than 3 percent of its budget on nuclear forces, 
and that during the peak years of modernization only 5 to 6 
percent of defense spending will go toward nuclear forces. To 
both of you, how should we be looking at this question of, 
quote, ``affordability,'' of nuclear modernization given the 
priority DOD assigns to the nuclear deterrence mission?
    Admiral Benedict. Yes sir. Thank you for the question.
    Sir, I would submit that while the percentage of the 
defense budget is as you stated, 3 to 6 percent, I think that 
the leadership should be expecting from the United States Navy 
and the United States Air Force options to ensure that that 
money is effectively spent. And to that, the United States Navy 
and the United States Air Force has been working the topic of 
commonality to ensure that, whatever resources we are provided, 
that those are utilized as efficiently as possible.
    I would submit that as a response, sir.
    General Harencak. Mr. Chairman, to add to that, as the 
United States Air Force modernizes and recapitalizes its two 
legs of the triad, every time we begin a process of looking at 
what to do, affordability is always the key aspect of what we 
are doing. To that end, we are--believe that we can have an 
affordable triad as long as we continue the great efforts we 
have been doing the past few years with the United States Navy 
and then leveraging the great innovation of our industry 
partners to make sure that we can have a safe, secure, and 
effective stockpile.
    Mr. Rogers. And let's stay with you, General. Why does the 
United States need the Long-Range Stand-Off weapon, the follow-
on to the current Air-Launched Cruise Missile?
    General Harencak. Well, thank you for that question. The 
ALCM is the Air-Launched Cruise Missile, it was a 1982 weapon 
with a 10-year service life. And it is a key aspect of our 
nuclear deterrent. It is a main priority focus of STRATCOM 
[U.S. Strategic Command]. And it gives us a unique capability 
to give the government and the President of the United States a 
wide range of options across the entire spectrum of conflict.
    A cruise missile is a stand-off weapon, and much like every 
other aspect of human conflict, the nuclear deterrent option 
also needs a stand-off and a direct attack. And what that 
allows us to do is across the entire spectrum, across any 
possible scenario out there, to give options, however the 
President may decide to use those options, but it gives options 
where we could respond to a wide range of threats.
    Specifically, the ALCM, as I already said, it is a 10-year 
lifespan and it is growing. So we have absolutely committed as 
the United States Air Force to providing an affordable long-
range strike option which allows us to have wide-ranging 
capabilities across the entire spectrum of conflict. And 
certainly in the closed session we can talk about the very 
specific classified reasons why we will need that capability in 
A2/AD [anti-access/area-denial] environment.
    Mr. Rogers. And why do we need a nuclear-armed cruise 
missile if we have a penetrating bomber and the B61 nuclear 
gravity bomb?
    General Harencak. Well, sir, simply because we need stand-
off and we need direct attack in this particular mission set as 
the air-delivered portion of the triad. It creates 
opportunities for us. It vastly, vastly complicates a potential 
enemy's defenses. And most importantly, as I said, it gives 
options, options that we would perhaps someday wish we had if 
we don't pursue this.
    As I said, ever since human conflict, we have had direct 
attack and we have had stand-off. And in this particular 
mission set is no different than any other mission set. We need 
that capability for our airmen that are going to be given a 
very difficult task in a number of highly important scenarios. 
We believe it is a capability, and so does Admiral Haney in 
STRATCOM, that we absolutely must fill.
    Mr. Rogers. Dr. Hopkins, would the Nuclear Weapons Council 
agree with that assessment?
    And, Mr. Scher, would OSD [Office of the Secretary of 
Defense] Policy agree with it.
    Dr. Hopkins. Mr. Chairman, the Nuclear Weapons Council 
would agree with that.
    Secretary Scher. Absolutely. The only thing I would add on 
top of the excellent answer from my Air Force colleague is that 
we should not be in a position where the only option that we 
give the President to use the air leg of the triad is putting a 
piloted airplane over enemy airspace to drop a gravity bomb.
    Mr. Rogers. With that, I will yield to my friend and 
colleague from Tennessee, the ranking member, for any questions 
he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I appreciate your 
holding this hearing, and I look forward to the classified 
session to follow.
    In the meantime, let me return to basics here. This hearing 
is really on the 2016 budget and the adequacy thereof, or not, 
for our nuclear forces. So isn't the first and most important 
point is we need at least the President's budget request, and 
nothing less will suffice?
    Secretary Scher. Sir, if I can answer, agreed, absolutely. 
I would say that is the case for the overall defense budget. We 
have been very clear that we need the President's budget 
request. We think it solves and fixes some of the problems that 
were created with sequestration that we are still trying to get 
out of. The nuclear enterprise is no different from any of 
those.
    And especially because this budget reflects changes and 
increases to the nuclear enterprise budget that we put in as a 
result of the studies of the Nuclear Enterprise Review [NER], 
it is even more critical to make sure that we have the 
President's budget request for the sustainability of the 
current force and the modernization of the future force that we 
are committed to doing. Sequestration would be a disaster for 
the Defense Department, the strategy, but also especially the 
nuclear enterprise.
    Mr. Cooper. Well, let me editorialize for a moment. The 
good news is it looks as if we will avoid the disaster you are 
describing and we will come in with a number slightly above the 
President's request. The bad news is we are pretending that 
OCO, overseas contingencies operations, will pay for that, 
which is off budget, which is like borrowed money, which is 
like a bandaid. So we really haven't fixed sequestration if we 
are not really paying for our nuclear forces, but pretending we 
are going to pay for our nuclear forces.
    So that, I am afraid, is the situation we are in, but I 
don't want to get any of the witnesses in trouble by agreeing 
or disagreeing with me on that.
    But let me note, I thought Dr. Hopkins' testimony was 
particularly well summarized, going through a number of the 
weapons programs and what the process of modernization 
involves. But on page 7 of Dr. Hopkins' testimony there are 
sentences that I think should be highlighted for the purposes 
of this hearing. This one should be noted for the record: 
Quote, ``The Nuclear Enterprise Review highlighted evidence of 
systemic problems in the strategic deterrent forces that 
threaten the future safety, security, and effectiveness of our 
nuclear forces.'' Wow. That is a heavy-duty sentence, and 
everybody who is aware of our nuclear enterprise should take 
that to heart.
    Another sentence we need to focus on is this: The fact that 
the Nuclear Deterrent Enterprise Review Group [NDERG], chaired 
by Deputy Secretary of Defense Work, will be focusing attention 
and resources at all levels of the DOD on this essential 
mission. So the NER noted huge problems, the NDERG is going to 
fix them, hopefully with a little cooperation of the 
subcommittee and of Congress. But nothing is more important. As 
our Navy friends are always excellent at emphasizing their 
testimony, they usually lead with the importance of the nuclear 
enterprise here.
    I don't want to go over too much dirty laundry, but there 
have been a sad litany of failures and problems in recent 
years, and we would hope that with this budget request going 
forward we will fix these problems.
    Again, my purpose isn't to get any of the witnesses in 
trouble here, but I think we should have a heightened level of 
responsibility, because past witnesses may have mouthed the 
words, but somehow safe, secure, and reliable was not 
necessarily the result. If, in fact, there was only one wrench 
for three missile fields in the Plains States, and apparently 
that wrench had to be FedEx-ed from spot to spot, that is just 
probably one of the more visible examples of failure in the 
system, but there have been others.
    Do any of the witnesses have recommendations for this 
subcommittee as to what we should focus on other than giving 
you enough money for your work?
    Secretary Scher. I will just take the opportunity to 
perhaps get myself in trouble, but nonetheless I think the 
money for the work, we appreciate the subcommittee and the full 
committee's support of the Defense Department's and the 
President's budget request.
    And, in fact, to just put a finer point on the OCO 
[overseas contingency operations] discussion that you had, this 
plan, being able to plan, to be able to put in a systematic 
plan to put across budget years is critical for us. Stability 
and clarity and transparency of budget figures is important for 
us to be able to deal with not just this year, but future 
years. So we would ask, and I know we are working to try to get 
to a situation where we are not reliant on OCO to cover the 
funding gaps.
    Mr. Cooper. Dr. Hopkins.
    Dr. Hopkins. In addition to the resources, both in fiscal 
year 2016 and over the sustained period, I think that your--you 
asked about what this subcommittee could do--your attention and 
your concern for the get-well plan in the aftermath of the 
Nuclear Enterprise Reviews is very helpful.
    As you know, the Deputy Secretary is chairing this Nuclear 
Deterrent Enterprise Review Group, which is a sustained 
attention to the problem. And as far as the assistance, I think 
the attention from this group and the concern expressed for 
this group is helpful.
    Mr. Cooper. Do you need any more help than that or would 
Congress just be getting in the way?
    Dr. Hopkins. Not that I can think of.
    Mr. Cooper. Thank you, Mr. Chairman. I have no more 
questions at this time.
    Mr. Rogers. I thank the gentleman.
    Chair now recognizes the gentleman from Alabama, Mr. 
Brooks, for 5 minutes.
    Mr. Brooks. Mr. Scher, the Congressional Budget Office has 
estimated the cost of maintaining nuclear weapons and delivery 
vehicles to be $348 billion over the next decade, or about $35 
billion per year, including inflation. Do you agree with this 
figure?
    Secretary Scher. I don't have the exact figure for 10 
years. We do extensive planning for the 5-year plan, but about 
3 percent of the budget is what we see for this over this 
fiscal year, and then I think we get up to right around 3 
percent, maybe a little bit more, the peak is at fiscal year 
2020 in the plan. So I would have to take a look at the 
specific numbers to make sure that they track with ours. We 
have looked at in depth the 5-year development plan versus the 
10-year.
    Mr. Brooks. And, Mr. Scher, what action is the United 
States taking as a result of Russia's violation of the 
Intermediate-Range Nuclear Forces [INF] Treaty?
    Secretary Scher. The first action that we are taking is 
working and trying to convince the Russians to come back into 
compliance with the INF Treaty. As you know, we have reported 
that the Russians have violated the INF Treaty. We hope that we 
can show and demonstrate to them that there was a reason why 
their predecessor government, the Soviet Union, went into this 
treaty in the first place, that was in their security and 
benefited their security to do so.
    Simultaneously with trying to convince them of that, we are 
looking at what actions we can take to ensure that any 
violation of the INF Treaty does not provide significant 
military advantage to the Russians. And as people have 
testified previously to this subcommittee and elsewhere, we 
look at that in sort of three categories of military 
activities.
    One is active defense, what we can do to defend places in 
Europe, locations that the INF Treaty-violating missile could 
reach. Another one is taking a look at how we could go about 
and actually attack that missile where it is in Russia. And 
then subsequently, a third part is looking at understanding 
that it is not simply attacking that capability, but that we 
can look at what things we can hold at risk within Russia 
itself.
    We are still looking at all of those possibilities, 
narrowing down what we think would be the most effective, and 
working very closely with our allies to determine how to best 
deter this aggression from Russia, deter and bring Russia back 
in.
    Mr. Brooks. With respect to your efforts to convince or 
persuade the Russians to get back into compliance, has this 
administration been successful with respect to any of the 
breaches by Russia of the INF Treaty?
    Secretary Scher. The one breach that we have reported to 
you, we have not been successful at getting them to understand 
that that is something that is not in their interest to do, we 
believe. We will continue to work on them while looking at the 
military options, but our patience is not limitless on this.
    Mr. Brooks. At what point in time does the United States 
start taking more aggressive action concerning the Russian 
Government's failure to comply with their treaty obligations?
    Secretary Scher. We are still from an interagency 
perspective working to figure out the exact timelines, 
especially in consultation with our allies. I will note that we 
have had increasingly detailed discussions with our allies 
about Russia overall, and this weighs into when we could make 
the decision. But we do want to see if there is a chance that 
they could realize that they are better off by coming back into 
compliance.
    Mr. Brooks. The same question with respect to NATO [North 
Atlantic Treaty Organization]. Is NATO doing anything to try to 
force Russia to comply with its INF Treaty obligations?
    Secretary Scher. So we are working as part of the NATO 
alliance very carefully, both on the conventional side, as well 
as meeting as part of the NPG, the Nuclear Planning Group, 
looking at what NATO should be doing in response to the Russian 
violation of the INF Treaty, but also to look at this as a 
whole and understand that this is part of a broader aggressive 
posture from Russia. And I can go into more details if you 
would like about and the ins and outs of that in a closed 
session.
    Mr. Brooks. Thank you.
    And to all of our witnesses, please describe the impacts 
and Nuclear Enterprise Review on the Nation's nuclear forces 
and the men and women that serve in them. You can go in 
whatever order you prefer.
    Secretary Scher. So I will just say from a policy 
perspective, we look at the Nuclear Enterprise Reviews, both 
the internal one and the external one, as critical looks at the 
enterprise and giving us key understanding of what some of the 
problem areas certainly were, the need for broader 
accountability and attention to the nuclear enterprise 
throughout the Department, and ensuring that it is supported 
throughout the Department and that it is integrated into all 
the ways we look at forces and operations in the Department.
    And we are a part of that accountability mechanism. We have 
clear roles, along with other people and other institutions 
represented here. And we welcomed the opportunity to really 
look at the results of that review and implement fixes that 
will fix this now and into the future.
    Mr. Brooks. Dr. Hopkins.
    Dr. Hopkins. The Nuclear Enterprise Reviews identified some 
issues, some longstanding issues that have been in the nuclear 
enterprise for a while. And the fixes aren't going to be easy, 
they are not going to be inexpensive. But the good thing that 
has happened is the Department has stepped up to this. The 
Department is putting a billion dollars in 2016 alone in 
starting the fixes and adding more money over the future years 
program.
    I think perhaps one of the best things that come up of it 
has been a recognition of what a fine force we have out there, 
in general, and a recognition that the professionalism of the 
nuclear forces is paramount.
    The second good thing that has happened is, we mentioned 
the NDERG, the Nuclear Deterrent Enterprise Review Group 
chaired by the Deputy Secretary of Defense, the highest levels 
of the Pentagon are engaged on this. And this isn't for one-
time fixes. The Pentagon has established an enduring, 
persistent self-examination process using the Cost Assessment 
and Program Evaluation Office to track every single 
recommendation made by the enterprise reviews and make sure we 
get at the root causes.
    Mr. Rogers. The gentleman's time has expired.
    The chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. A question for you, Mr. Chairman. When will 
the classified session take place?
    Mr. Rogers. Immediately after we conclude.
    Mr. Garamendi. Then I will keep to just one question. That 
has to do with the question that was raised earlier about the 
10-year time horizon and the cost associated with it.
    Dr. Hopkins, apparently you have a 25-year time horizon 
that you have been working on. Have you associated costs with 
that?
    Dr. Hopkins. Thank you for the question, sir. I do not have 
an associated cost with it. We of course will have cost 
estimates based on previous experience with the development of 
programs from earlier years, but we don't have a cost estimate 
with that.
    Mr. Garamendi. Do you have associated estimated costs?
    Dr. Hopkins. I believe we do.
    Mr. Garamendi. And they are?
    Dr. Hopkins. I don't have that number.
    Mr. Garamendi. When can you get that number for us?
    Dr. Hopkins. I will take it for the record and get back to 
you.
    Mr. Garamendi. Tomorrow?
    Dr. Hopkins. Certainly.
    Mr. Garamendi. Tomorrow?
    Dr. Hopkins. Sure.
    [The information referred to can be found in the Appendix 
on page 83.]
    Mr. Garamendi. Thank you. My office number is----
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the gentleman from Colorado, Mr. 
Coffman, for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Major General Harencak, can you describe to me the need for 
the next generation manned bomber as part of the triad?
    General Harencak. Yes, sir. We believe that the essence of 
the United States Air Force is the ability to hold at risk any 
target in the world in a matter of hours or at most days. And 
this ability allows no sanctuary for defense. The ability to 
penetrate enemy air defenses and prosecute the target is 
fundamental to what the United States Air Force does.
    And our ability to do that is in long-range strike 
aviation, specifically bombers, is not going to be possible 
with our legacy systems, the youngest of which is a B-2 bomber 
that is about 25 years old. All of our B-52s are 1961, 1960 
models, these are old aircraft. The B-1s are also aged. In 
fact, as our chief has said many times, our entire bomber fleet 
in any State in the union could qualify for antique license 
plates.
    The ability that we must have, and certainly in a 
classified situation we could give you, again, a lot of very 
compelling data as to the need to a long-range strike, but I 
like to tell people it is because no one ever wants to walk 
into the Oval Office and say, Mr. President or Madam President, 
I am so very sorry, but we cannot neutralize that threat to 
America. And we need the Long-Range Strike Bomber so no one 
ever has to do that.
    Mr. Coffman. Given all the advances, you talked about the 
cruise missile, that has been around for a long time, all the 
advances in a guidance system, precision guided munitions, that 
can be armed with nuclear weapons. I mean, obviously, we 
understand the air component part of the triad, but why can't 
unmanned capability replace manned capability in terms of that 
delivery system?
    General Harencak. Well, I am not saying at some time in the 
future they cannot. What we have to deal with is the 
capabilities we currently have and what we foresee to be the 
capabilities in the future.
    We believe from the nuclear aspect it is important to the 
triad, but I think it is important to realize that should the 
great day come when nuclear weapons disappear from the world, 
and if that happened tomorrow we would still need to build the 
Long-Range Strike Bomber because we must have a capability, 
again, to range with long-range, persistent, high-volume 
capability to destroy targets and allow no sanctuary, anywhere 
to go.
    So that is currently best accomplished with a cranium in 
the cockpit. And there may come a time where that is not 
required, but certainly it is required in the near and midterm 
future.
    Mr. Coffman. Mr. Chairman, I yield back.
    Mr. Rogers. The chair now recognizes the gentleman from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Scher, some of us have been very concerned about the 
announcements of the framework points with Iran. The concerns 
that we have are that essentially it appears that these are 
going to replace the longstanding U.N. resolutions that 
required Iran to dismantle their uranium enrichment and 
plutonium production capabilities and that that is going to be 
replaced with a framework that in our minds, literally, 
notwithstanding the claims that it would lengthen the breakout 
period, but that in the ultimate sense this would allow Iran a 
protected zone of time, a buffer, as it were, to develop some 
of their ancillary research and other things that gives them an 
even more sure opportunity to ultimately become a nuclear-armed 
nation.
    Henry Kissinger and George Shultz opined that, quote, 
``This deal will reinforce, not resolve the world's challenges 
in that region.'' And we certainly believe that.
    Now, to ameliorate some of our concerns the administration 
has put forth this ostensible idea that they will now make sure 
that our Middle East allies are under our nuclear umbrella. And 
some of us are concerned that that creates a whole host of new 
strategic questions and risks. And I would like essentially 
just to make a deal that is, in my judgment, a very, very 
dangerous deal work, that they would literally try to quell our 
concerns by putting some of our Middle Eastern allies under our 
nuclear umbrella.
    Is that true from your point of view? And does that, you 
think, enhance the national security perspective of the United 
States?
    Secretary Scher. I certainly, Congressman, have seen 
reports where individuals have opined, but not from the 
administration, about nuclear assurance and guarantees from 
Middle East colleagues and allies and friends.
    Mr. Franks. But you know nothing, that there is no 
consideration on the part of the administration to do that?
    Secretary Scher. I think there is consideration about a 
range of things. I will tell you that the people who are 
involved directly with the Middle East affairs, I certainly can 
get an answer from them as to where we are now.
    [The information referred to can be found in the Appendix 
on page 83.]
    Secretary Scher. But my understanding is that we are 
continuing to look at ways that we can reassure our friends in 
the gulf. But I have not seen where administration officials 
have spoken about nuclear guarantees as part of that. I can't 
say that no one is, but I have not seen that.
    And my understanding is that we are focused on the 
assurances for our friends and allies that we have had in the 
past in terms of working closely with them, interoperability, 
foreign military sales, and especially missile defense 
cooperation in the Gulf Cooperation Council individual nations.
    Mr. Franks. Well, I would just suggest that putting Iran on 
a surer footing, a surer track to become a nuclear-armed nation 
does not encourage our allies in the region. And ``terrified'' 
is probably a good word here.
    It seems the administration has chosen to punt here rather 
than deal with the real issue, and they only make the equation 
more complicated down the road. And whatever the dangers are in 
preventing Iran from gaining a nuclear weapons capability, and 
there certainly are risks and costs to do that, they will pale 
in comparison to dealing with them once they have a nuclear 
weapons capability.
    With that, General Harencak, I will move on to you, sir. 
Regarding our aging nuclear infrastructure, I was hoping you 
could tell us what the analysis of alternatives is for the 
follow-on to the Minuteman III regarding the cost, as opposed 
to simply refurbishing and extending the life of the current 
Minuteman III. In other words, juxtapose that from acquiring a 
new missile system or refurbishing the old one.
    Also, we have an aging fleet of B-52s. I would love to hear 
your story about that. I know it is a very compelling one. How 
old is the B-52? How old will it be when we plan to retire it? 
And do you have any specific insight into it?
    General Harencak. Well, sir, thank you for the opportunity 
to talk about the GBSD [Ground-Based Strategic Deterrent].
    We believe that the best way to maintain the foundational 
aspect of the ICBMs [intercontinental ballistic missiles] that 
are what we believe to be foundational to our triad and nuclear 
deterrent is--the Minuteman III is a 1970 weapon, as you know. 
The great airmen out there are doing a fantastic job of 
sustaining this missile as a weapon system with silos that are 
sometimes even older than the missiles themselves. And it is an 
amazing engineering challenge to keep that system up and 
functioning as well as it did.
    And certainly, the nuclear reviews that we talked about a 
little bit have mentioned some of the things specifically 
focused on ICBMs that we need to reevaluate and work in a 
systemic and productive manner and we are certainly doing that.
    Mr. Rogers. Gentleman's time has expired.
    Chair is now going to recognize the gentleman from 
Nebraska, Mr. Ashford, for 5 minutes.
    Mr. Ashford. If this has been asked, I apologize, I was a 
bit late. The global strike force at Offutt, the functional 
component command, could you just--if you have already talked 
about that--but could you just--if you have, I am sorry to ask 
it again--but could you talk about that, the Offutt Air Force 
Base joint command, functional command facility, just about its 
future and how you see it evolving?
    I could ask, General, if you could talk about that. And if 
that question is too obtuse, I apologize. Well, the joint 
functional command component at Offutt, how do you see that 
evolving into the future, whether it has the capability or the 
resources moving forward?
    General Harencak. Unfortunately, sir, I will have to get 
back to you for the record on that.
    [The information referred to can be found in the Appendix 
on page 84.]
    Mr. Ashford. I don't have anything else.
    Mr. Rogers. The chair now recognizes the gentleman from 
Oklahoma, Mr. Bridenstine, for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    When NATO published its Deterrence and Defense Posture 
Review, DDPR, in 2012, NATO explicitly saw Russia as a 
cooperative partner for peace in Europe and the wider world. 
That was in 2012. That was after the invasion of Georgia, the 
current occupation of South Ossetia and Abkhazia.
    Since 2012, Russia has illegally annexed Crimea, they have 
destabilized broader eastern Ukraine. Certainly their actions 
and of course, I guess, their language towards other European 
nations has been hostile. And so we have got these challenges 
with Russia.
    Mr. Scher, you sit on the U.S. representative to the High 
Level Group within NATO, which does NATO's nuclear planning. Is 
NATO going to revisit the basic assumption of the DDPR that 
Russia is a partner?
    Secretary Scher. Congressman, I can't speak to where the 
alliance is coming down on the political issues. What I can 
speak to broadly in this forum and will be happy to do in more 
detail in the classified session is note that we on the HLG, 
the High Level Group, as support to the Nuclear Planning Group, 
the NPG, as the ministers sit in that forum, are taking a look 
at the capabilities that exist in Europe amongst all countries 
and determining how we can best ensure that the alliance 
remains safe and secure, and the deterrence is maintained, and 
if deterrence fails, how we as an alliance can protect our 
interests and protect ourselves against any adversary that 
exists.
    Mr. Bridenstine. I understand that the alliance has 28 
nations, and of course they all have various interests and it 
is sometimes hard to come to a specific resolution on these 
important matters. But Russia is calling NATO a threat. Are we 
indicating to NATO that maybe we ought to consider Russia a 
threat?
    Secretary Scher. We are certainly working with NATO. As you 
well know, as you said, it takes a while for 28 nations to come 
to consensus on things. But I have no doubt and can assure you 
that NATO is looking at the actions of Russia and looking to 
see and understand that these are actions that are assertive 
and aggressive towards friends and partners in the region and 
that we need to start taking a look at both the actions and the 
capabilities of the Russian Federation.
    Mr. Bridenstine. The DDPR called for NATO-Russia 
cooperation on missile defense. NATO-Russia cooperation on 
missile defense. Is it your recommendation that we should 
rewrite the DDPR?
    Secretary Scher. Certainly, we are no longer looking at any 
cooperation in missile defense with Russia at this point. In 
fact, NATO has specifically said that we will--and we will not 
have any interactions with Russia given the actions that they 
have taken. The Wales Conference looks very clearly and makes 
very clear statements about Russia's recent actions over the 
course of the past year.
    Mr. Bridenstine. So should we rewrite the DDPR then?
    Secretary Scher. That is for my colleagues at the State 
Department to determine with ministers at that level. But 
certainly I can assure you that we are looking at actions that 
understand that the situation has changed since the writing of 
the DDPR.
    Mr. Bridenstine. Can you give us in this session any 
conversations that NATO has had regarding Russia's violation of 
the INF Treaty?
    Secretary Scher. I would prefer to keep that for the 
classified session, sir.
    Mr. Bridenstine. Okay.
    Admiral Benedict, question for you. When we think about our 
space communications architecture for nuclear deterrence, we 
use AEHF [Advanced Extremely High Frequency] satellites. There 
is some talk about using some of that capacity for tactical 
purposes, as well as strategic purposes. Is there a concern 
there that we might be cannibalizing some of our capacity for 
tactical?
    Admiral Benedict. Sir, thank you for the question. There is 
an actual ongoing review of what we call NC3 [nuclear command, 
control, and communications] from an end-to-end perspective 
right now, led at the OSD level. That information has not yet 
been reported out, but I am confident that that action that you 
referred to is part of that review. And I would respectfully 
request that we wait until that review----
    Mr. Bridenstine. Sure. Do you know when that review would 
be complete?
    Admiral Benedict. Sometime this summer, sir. I don't have 
the exact date, but I can get back to you.
    Mr. Bridenstine. Okay. And I would love to have a copy of 
that, if possible.
    Admiral Benedict. Understood.
    [The information referred to can be found in the Appendix 
on page 84.]
    Mr. Bridenstine. Okay. And I will yield back. I am out of 
time.
    Mr. Rogers. Thank the gentleman.
    The chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Admiral Benedict, what is the minimum number of Ohio-class 
replacement submarines that are required to fulfill STRATCOM's 
requirements for sea-based deterrence? And I know we have 
talked about this before, but I think it is important to go on 
record about this.
    Admiral Benedict. Yes, sir. That would be the number in the 
program of record, which is 12, with 16 tubes per submarine, 
sir.
    Mr. Lamborn. And what happens if you have less than 12?
    Admiral Benedict. Sir, if we have less than 12, then--we 
have done the analysis and provided that to STRATCOM--we will 
not be able to meet the STRATCOM requirement of numbers at sea 
in alert and mod-alert status, as well as numbers at sea to 
support the STRATCOM requirement for a certain number of hours 
to have certain numbers at sea.
    Mr. Lamborn. So if you have X number in the fleet, some are 
always going to be at a base somewhere or being resupplied, and 
some will be trained.
    Admiral Benedict. And maintenance, yes, sir.
    Mr. Lamborn. And only a subset of that number will be 
available at any given time.
    Admiral Benedict. Yes, sir. Based on the analysis, 12 gives 
us confidence from a statistical standpoint that we will always 
have 10 ready for sea, which is the number necessary for 
STRATCOM.
    Mr. Lamborn. Excellent. Thank you so much.
    Admiral Benedict. Yes, sir.
    Mr. Lamborn. Mr. Scher, President Obama's nuclear 
employment guidance rejects the notion of, quote, unquote, 
``de-alerting'' U.S. nuclear forces, though continuing to 
examine options to reduce the role of ``launch under attack.'' 
Please explain why the President chose to reject de-alerting 
U.S. ICBM forces.
    Secretary Scher. The way that we looked at this was that it 
did not make any great sense to de-alert forces, that we 
thought that all the forces that were there needed to be ready 
and effective and able to prosecute the mission at any point in 
time. And that was the determination made, that that was 
valuable for presenting multiple options for the President and 
for safety, security, and surety of the nuclear enterprise.
    Mr. Lamborn. Okay, thank you.
    And following up on that, General Harencak, some critics 
have said that our ICBMs are under hair-trigger alert. Is that 
an accurate categorization?
    General Harencak. It is an absolutely not accurate. And it 
is an emotional aspect that people attach to this that is not 
fundamentally factual to what goes on in our ICBM launch 
control facilities.
    So absolutely not, sir. They are not under hair-trigger 
alert. They are very responsive, the most responsive aspect of 
our nuclear triad. But that characterization is inaccurate and 
unfair.
    Mr. Lamborn. Thank you for clarifying. And there are many 
safeguards and checks and balances that are built and put into 
place, right?
    General Harencak. A holistic system of safeguards put into 
place, absolutely, sir.
    Mr. Lamborn. Thank you. I have been to F.E. Warren and seen 
the underground command center. I have seen how this has 
tremendous amounts of fallback, fail-safe provisions. It is a 
great thing that has been done in setting up the system in an 
appropriate way. But, nevertheless, the Nuclear Enterprise 
Review in 2014 identified a whole bunch of corrective actions 
that the Air Force should carry out to fix leadership morale, 
culture, and other problems, and some of those were in the ICBM 
force. So what actions are being taken to improve the ICBM 
force?
    General Harencak. A large slate of actions, sir, have been 
under place, and they started during our Force Improvement 
Plan, which actually we started prior to the external review 
reports and the internal review reports and the STRATCOM report 
that the NERs are all referencing now, and the tracking.
    A number of issues, from personnel management, to 
sustainment issues, to the ability of us to ensure that the 
morale and career progression of our missileers is enhanced, 
has allowed a lot of positive improvements that have already 
been seen and continue to be seen in our ICBM force.
    Mr. Lamborn. And one specific action. And I too, like the 
ranking member, was distressed when I heard about the wrench 
that had to be shared among several locations. Is there any 
situation like that today that you are aware of?
    General Harencak. No, sir.
    Mr. Lamborn. And was that an accurate report at the time?
    General Harencak. It is. Actually, like everything else, 
there is a little bit more to the story. That particular wrench 
was only used about 5 times in 8 years. And so somebody, 
believing that they were actually doing something good, decided 
why don't we FedEx them, it would save a certain amount of 
money. In retrospect, that was a bad decision, but it was a 
decision based on the best of intentions.
    Mr. Lamborn. All right. Thank you gentlemen all for your 
service.
    Mr. Rogers. We have a little bit of time. They are calling 
us for votes right now, but we have a little time.
    Dr. Hopkins, your boss, Under Secretary Kendall, is the 
chairman of the Nuclear Weapons Council and you are the 
executive director. Very briefly, do you think the Council 
would benefit from having new members, like, for example, the 
director of CAPE [Cost Assessment and Program Evaluation] and 
its equivalent from NNSA [National Nuclear Security 
Administration], or the DOD comptroller and his equivalent from 
NNSA? Why or why not?
    Dr. Hopkins. Mr. Chairman, thank you very much for that 
question. As you know, Mr. Kendall chairs the Nuclear Weapons 
Council, and the other four members are the Vice Chairman of 
the Joint Chiefs, the head of Strategic Command, the Under 
Secretary for Policy, and STRATCOM. And as the Nuclear Weapons 
Council does meet, it has a number of advisers on it. And as 
you know, CAPE is an adviser and so is the comptroller, along 
with each of the three services and the Office of the General 
Counsel.
    The Nuclear Weapons Council is a very collaborative body, 
they operate on consensus, and it is working very efficiently 
at this point. And I would not recommend any changes to the 
membership, primarily because the way it is operating, the 
chairman and the members take into account fully the 
recommendations and the comments from all of the advisers, 
including CAPE and including the comptroller.
    Mr. Rogers. Dr. Hopkins, what was the DOD's reaction to an 
annual requirement to give Congress a 25-year plan with 
expected budgets and funding for DOD with nuclear forces? Would 
this be overly burdensome, and would it be useful or accurate 
looking that far ahead?
    Dr. Hopkins. You want me to speculate on the DOD's 
reaction? I think the initial reaction would be, oh, no, not 
another report. In general, the report would be perceived as 
burdensome. So that is the mechanics of it.
    In fact, as you know, we do look out. These programs we are 
talking about go well beyond the 5-year defense program time 
limit. We have to think well into the future years. And right 
now we submit a 10-year report that does have programs and 
costs on it.
    We do look out 25 years and longer in order to actually see 
this modernization mountain that we have been talking about in 
the 2020s. As you would expect, looking out that far, 25 years, 
the credibility of the numbers would be very, very suspect.
    However, the ability to look out that far and anticipate 
the need for future modernization, additional resources, or 
gauge the impact of decisions that we make today is very 
important to us.
    I would not recommend a new report, but I would instead 
recommend we do what we are doing now, which is sharing the 
baseline plan, which does go out 25 years, and share that 
information, as we have been.
    Mr. Rogers. Okay. Let's talk about the B61. In our hearing 
with General Klotz last month we heard that NNSA's part of the 
B61 life-extension program [LEP] is proceeding well, on time 
and on budget. Let's hear from the other side of the river. 
General Harencak, how is the Air Force portion of the B61 LEP 
going? Are we going to get a full tail kit for this bomb that 
is on time and on budget? What are the primary risks for this 
program?
    General Harencak. Yes, we are on time, we are on budget. We 
see absolutely nothing that would risk us not being able to 
deliver for 2020 as required.
    Mr. Rogers. Great.
    Mr. Scher, what is DOD's position on the cost for the U.S. 
to ask our NATO allies to pay for part of the B61 LEP.
    Secretary Scher. Certainly our NATO allies have a lot of 
burden sharing in the DCA [dual-capable aircraft] mission, but 
I would not recommend sharing some of the costs of the B61 
would be part of that. They do a lot of burden sharing in terms 
of site security, in term of sharing some of the costs for the 
storage, for NATO percentage costs.
    But to share costs on the B61 I think would open up a lot 
of other issues, such as them having some understanding or 
wanting to be involved in some of the engineering and the 
design. All of that is quite sensitive and I really don't think 
is something that we would want to open up to our NATO allies, 
especially because the B61 is not just for the Europe DCA 
mission, but is for nuclear missions for us around the world.
    Mr. Rogers. Great. And I want to clarify, the House is 
going into recess for 15 minutes. At 4:30 they will call us for 
votes.
    I yield to the ranking member for any additional questions 
he may have.
    Mr. Cooper. I have no more questions at this time, Mr. 
Chairman.
    Mr. Rogers. Okay, then. Mr. Garamendi, do you have anymore 
questions before we go into classified session? Okay.
    With that, we will recess while we travel down to 2337 in 
the SCIF [Sensitive Compartmented Information Facility] for the 
classified portion of this hearing.
    [Whereupon, at 4:20 p.m., the subcommittee proceeded in 
closed session.]
     
=======================================================================


                            A P P E N D I X

                             April 15, 2015
 
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 15, 2015

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 15, 2015

=======================================================================

       
       [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
    
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 15, 2015

=======================================================================

      
             RESPONSE TO QUESTIONS SUBMITTED BY MR. FRANKS

    Secretary Scher. Deterrence in the Middle East is a complex 
challenge, and nuclear proliferation in the region would only 
exacerbate the tensions and potential for instability there. This is 
one reason the Administration continues to work towards a comprehensive 
solution that that will verifiably prevent Iran from obtaining a 
nuclear weapon.
    Regardless of the arrangement of that deal, we will continue to 
work with our partners to maintain a range of capabilities for regional 
deterrence in the Middle East. Our objective is to build and sustain a 
robust regional security and deterrence architecture based on U.S. 
conventional military capabilities, expanded cooperation on missile 
defense, and our partners' capabilities. The United States has not, 
however, offered extended nuclear deterrence guarantees to our partners 
in the Middle East.
    The objective of our missile defense cooperation is to establish a 
regional missile defense architecture in which all of the Gulf 
Cooperation Council (GCC) States participate and contribute to the 
extent practical, leading to a layered defense network. This 
architecture would strengthen deterrence and increase the collective 
ability of the GCC to defeat a ballistic missile attack while reducing 
the burden on limited U.S. regional missile defense assets.   [See page 
10.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MR. GARAMENDI
    Dr. Hopkins. DOD generally does not develop 25-year cost estimates 
but provided 10-year estimates to the committee within 24 hours of the 
hearing. Forecasting DOD costs over a 25-year period with any useful 
accuracy is extremely difficult given the challenges of predicting 
developments in the international security environment and ongoing 
technological advancements. Table 1 resubmits the 10-year DOD cost 
estimates for sustaining and modernizing these weapons systems as 
documented in the ``Fiscal Year 2016 Report on the Plan for the Nuclear 
Weapons Stockpile, Nuclear Weapons Complex, Nuclear Weapons Delivery 
Systems, and Nuclear Weapons Command Control System Specified in 
Section 1043 of the National Defense Authorization Act for Fiscal Year 
2012.''   [See page 8.]

      [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
                                  ______
                                 
           RESPONSE TO QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Admiral Benedict. The NC3 review mentioned in my testimony is still 
ongoing, and does not specifically address use of military satellite 
communications (AEHF) for tactical versus strategic requirements. In 
answer to your original question, AEHF is designed to meet protected 
SATCOM requirements based on both Strategic and Tactical Scenarios. 
Accesses on the satellites are requested via Satellite Access Requests 
and are assigned based on mission priorities. In an actual strategic 
scenario, strategic users would have top priority.   [See page 13.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. ASHFORD
    General Harencak. The operational planning performed by the U.S. 
Strategic Command's Joint Functional Component Command for Global 
Strike remains essential to the nation's ability to conduct nuclear 
assurance, deterrence, and global strike operations. The Air Force 
supports this important mission in a number of ways, particularly 
through Eighth Air Force and its 608th Air and Space Operations Center. 
  [See page 11.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 15, 2015

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. President Obama's Nuclear Employment Guidance rejects 
the notion of de-alerting U.S. nuclear forces while continuing to 
examine options to reduce the role of ``Launch under Attack'' in U.S. 
planning. Please explain why the President chose to reject de-alerting 
U.S. ICBM forces?
    Secretary Scher. The President's decision not to de-alert the 
Intercontinental Ballistic Missile (ICBM) force was the result of 
analysis that indicated doing so would be destabilizing, not 
stabilizing, in a crisis or conflict. A race to ``re-alert'' in crisis 
could prompt one side to strike preemptively.
    Maintaining continual at-sea presence of ballistic missile 
submarines strengthens crisis stability by ensuring that a decision by 
the President to delay U.S. response to a nuclear attack would not mean 
loss of assured response capability. Maximizing Presidential decision 
time in this way allows us to reduce the role of Launch Under Attack in 
U.S. planning.
    Extensive safeguards and an extremely secure command and control 
system make the possibility of an accidental or unauthorized ICBM 
launch remote. Furthermore, the current practice of ``open-ocean 
targeting'' of all ICBMs and Submarine-Launched Ballistic Missiles 
ensures that, in the highly unlikely event of an accidental launch, the 
missile would land in the open ocean.
    Mr. Rogers. Did the Nuclear Posture Review and its related 
implementation study examine in detail various options for the 
structure of U.S. nuclear forces, including a dyad and potential monad? 
What did these analyses show about the risks of moving away from the 
triad? Why did the Administration choose to remain with the triad--
explicitly rejecting the elimination of one or more legs of the triad?
    Secretary Scher. In the lead up to the 2010 Nuclear Posture review 
(NPR), DOD conducted a series of separate analytic studies looking at 
the appropriate size, composition, and posture of U.S. nuclear forces. 
These studies influenced the NPR and the 2010 ``1251 Report to 
Congress'' on the DOD preferred force structure under the New START 
Treaty.
    These studies used various attributes and metrics to evaluate a 
range of force structure options in terms of their ability to support 
policy goals, including strategic deterrence, extended deterrence, and 
assurance of allies and partners. The study analytics were applied to 
various monads, dyads, and triads at numerous force levels.
    Taken together, these studies concluded that retaining all three 
legs of the nuclear Triad under the New START Treaty at negotiated 
lower force levels is the best way to affordably maintain strategic 
stability, sustain effective nuclear deterrence of potential 
adversaries and assurance of allies and partners, while credibly 
hedging against geopolitical changes or technical problems and 
vulnerabilities.
    Mr. Rogers. Last year, Secretary Hagel provided a report (which I 
will introduce for the record) assessing the requirements for plutonium 
pit manufacturing. This report reaffirmed the requirement for a pit 
production capacity of 50-80 pits per year, correct? This report is 
about a year old--has its conclusion that we need a capacity of 50-80 
pits per year changed?
    a. Should pit production capacity be tied solely to the needs of 
the life extension programs, or should the requirement for a responsive 
infrastructure also influence when we achieve a pit production capacity 
of 50-80 per year?
    b. What analysis underpins this number? How do pits in storage, 
planned life extension programs, and the expected lifetimes of pits 
factor in?
    Dr. Hopkins. The conclusion of the ``Assessment of Nuclear Weapon 
Pit Production Requirements'' report, that the Nation requires a pit 
production capacity of 50-80 pits per year, remains unchanged. The 
report explains that pit production capacity is tied to four factors: 
policy objectives for the nuclear deterrent; stockpile aging (including 
pit age and plutonium aging); military requirements (including planned 
life extension programs); and infrastructure costs and capacity. The 
National Nuclear Safety Administration (NNSA) Fiscal Year (FY) 2016 
Stockpile Stewardship and Management Plan details NNSA's plutonium 
investment strategy that leads to war-reserve-quality production of 30 
plutonium pits per year by FY 2026 and 50 to 80 pits per year by 2030.
    Pits in storage represent the Nation's only source of plutonium for 
newly manufactured pits. They also enable pit reuse alternatives for 
future life extension programs that can mitigate near-term production 
workload.
    Mr. Rogers. Did the Nuclear Posture Review and its related 
implementation study examine in detail various options for the 
structure of U.S. nuclear forces, including a dyad and potential monad? 
What did these analyses show about the risks of moving away from the 
triad? Why did the Administration choose to remain with the triad--
explicitly rejecting the elimination of one or more legs of the triad?
    Dr. Hopkins. In preparation for the 2010 Nuclear Posture Review, 
DOD executed several studies looking at the appropriate size, 
composition, and posture of U.S. nuclear forces. These studies 
evaluated a range of force structure options to support policy goals, 
including strategic deterrence, extended deterrence, and assurance of 
allies and partners. The study analytics were applied to various 
monads, dyads, and triads at numerous force levels. Conclusions from 
these studies agreed that maintaining all three legs of the nuclear 
triad at negotiated lower force levels is the best way to sustain 
effective nuclear deterrence of potential adversaries and assurance of 
allies at reasonable cost, while hedging against potential technical 
problems and vulnerabilities.
    Mr. Rogers. General Harencak, does the Air Force maintain a 
capability to put multiple independently retargetable reentry vehicles 
(MIRVs) on its Minuteman III ICBMs? Will it continue to maintain this 
capability on the follow-on to Minuteman III, the ground-based 
strategic deterrent (GBSD) program?
    In your military judgment, why is this capability important?
    General Harencak. Yes, in accordance with national guidance, the 
United States retains the ability to upload non-deployed warheads to 
the Minuteman III ICBM in MIRV configuration. To support this 
requirement, the Air Force continues to periodically conduct MM III 
flight tests with multiple warheads.
    The Air Force intends to retain the ability to upload multiple 
warheads in the Ground-Based Strategic Deterrent (GBSD). In my military 
judgment, maintaining this capability in the follow-on ICBM is an 
important aspect of preserving the credibility and effectiveness of the 
ICBM force in the decades ahead. ICBM MIRV capability enhances the 
resiliency of the Triad by providing an effective hedge against 
technical failure in another leg of the Triad or geopolitical surprise. 
The risk mitigation benefits it offers are extremely valuable, 
especially as the U.S. reduces its strategic force structure to comply 
with arms control treaty requirements.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Please provide information on the planning, 
timelines for research and development, production timelines, and costs 
of the Department of Defense's nuclear sustainment and modernization 
strategy. This information should be comparable to the information in 
the National Nuclear Security Administration's annual report to 
Congress on the Stockpile Stewardship and Management Plan, which 
details the priorities and planning for nuclear weapons modernization 
over 25 years, including estimates of per-year costs and life-cycle 
costs.
    Secretary Scher. I have reviewed Dr. Hopkins' response to this 
question, and concur with the information he provided. [See below.]
    Mr. Garamendi. Please provide information on the planning, 
timelines for research and development, production timelines, and costs 
of the Department of Defense's nuclear sustainment and modernization 
strategy. This information should be comparable to the information in 
the National Nuclear Security Administration's annual report to 
Congress on the Stockpile Stewardship and Management Plan, which 
details the priorities and planning for nuclear weapons modernization 
over 25 years, including estimates of per-year costs and life-cycle 
costs.
    Dr. Hopkins. The United States will maintain a triad composed of 
intercontinental ballistic missiles, submarine-launched ballistic 
missiles, and heavy bombers capable of carrying nuclear gravity bombs 
and cruise missiles, within New START Treaty central limits. 
Additionally, DOD will maintain nuclear dual-capability on fighter 
aircraft in the future with the F-35. Current Triad systems are beyond 
their original expected service lives and are being sustained until 
they can be replaced in the 2025-2035 timeframe.
    A high-level view of the joint Department of Defense (DOD) and 
National Nuclear Security Administration (NNSA) nuclear weapons 
sustainment and modernization strategy is presented in the Nuclear 
Weapons Council (NWC) Baseline Strategic Plan. The plan, which provides 
the basis for nuclear weapons budget planning, is a 25-year view 
summarizing the timelines for production and deployment of nuclear 
warheads, DOD delivery systems, and associated NNSA production 
infrastructure such as pit and tritium production. DOD generally does 
not develop 25-year cost estimates but has provided 10-year estimates. 
Forecasting DOD costs over a 25-year period with any useful accuracy is 
extremely difficult given the challenges of predicting developments in 
the international security environment and ongoing technological 
advancements. Table 1 summarizes 10-year DOD cost estimates for 
sustaining and modernizing these weapons systems as provided in the 
``Fiscal Year 2016 Report on the Plan for the Nuclear Weapons 
Stockpile, Nuclear Weapons Complex, Nuclear Weapons Delivery Systems, 
and Nuclear Weapons Command Control System Specified in Section 1043 of 
the National Defense Authorization Act for Fiscal Year 2012.''
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                        ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. The Navy and the Air Force have successfully 
collaborated on the joint fuse program, saving both Services time and 
money. Could the witnesses please: provide examples of other joint 
programs and subsystems opportunities for Air Force and Navy 
collaboration; detail the barriers to such collaboration; and outline 
what mechanisms should be implemented to overcome such barriers and 
help strengthen future collaboration.
    Dr. Hopkins. Additional examples of productive collaborations 
between the Air Force and Navy include the Ground-Based Strategic 
Deterrent (GBSD) program, missile and reentry body technology 
development, and use of common production and repair facilities. 
Collaborations can be limited by differing operational requirements, 
peacetime employment and sustainment for nuclear weapons systems, and 
the timing of acquisitions programs.
    To help reduce these limitations and to foster strategic 
collaboration, the Office of the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (AT&L) and the Military 
Departments have existing mechanisms that increase collaboration across 
the Departments and ensure that DOD leverages investments in a fiscally 
constrained environment. AT&L leads a semi-annual review of Air Force 
and Navy science and technology efforts under the Technology for the 
Sustainment of Strategic Systems Integrated Product Team, in part to 
identify areas for collaboration between the two Military Departments. 
This effort leverages investments in key technical and system areas and 
supports critical skills and capabilities within the strategic systems 
community. In addition, a 2012 Navy/Air Force Memorandum of Agreement 
(MOA) signed by the Director of Navy Strategic Systems Programs, the 
Commander of the Air Force Nuclear Weapons Center, and the Air Force 
Program Executive Officer for Strategic Systems provides a framework to 
identify opportunities for collaboration and to coordinate investments 
in current and follow-on strategic systems. Such governance mechanisms 
serve to overcome barriers and help strengthen future collaborations.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP
    Mr. Bishop. The Air Force's hub for ICBM sustainment and 
modernization is at Hill AFB in Utah. Over 18 month ago, the Air Force 
awarded the Follow-on Intercontinental Ballistic Missile Sustainment 
and Acquisition Concept (FISAC) Integration Support Contract to BAE 
Systems, after 54 years with Northrup Grumman. Please explain how the 
contract transition has been managed and on the systems engineering and 
acquisition support to date, in helping the Air Force sustain the 
existing Minuteman III fleet and develop its proposed follow-on, the 
Ground-Based Strategic Deterrent. Additionally, funding is critical to 
correcting past neglect of the nuclear enterprise. What are your 
thoughts on the funding levels required to sustain and modernize the 
ground based component of the United States' nuclear triad?
    General Harencak. The Future ICBM Sustainment and Acquisition 
Construct (FISAC) evolved from an evaluation of multiple options for 
weapon system support and includes an Integration Support Contract 
(ISC) and four subsystem (Propulsion, Guidance, Re-Entry, and Ground 
Systems) contracts. Transition risk was mitigated by extending the ICBM 
Prime Integrated Contract (IPIC) support through award of the Partial 
Bridge Contract (PBC) to Northrop Grumman. Transition to FISAC is being 
completed in phases beginning with the award and transition of the ISC 
followed by subsequent award and transition of each of the subsystem 
contracts. As each transition phase is completed, the PBC is de-scoped 
proportionally to remove any unnecessary duplication of effort.
    The ISC contract was awarded to BAE in July 2013 and transition was 
completed in June 2014. BAE has met all of their hiring targets and 
have received excellent ratings on their first Contractor Performance 
Assessment Report in July 2014. BAE has, and will continue to provide, 
the critical system engineering and integration expertise required to 
adequately support the Government's organic workforce through the 
transition.
    The Re-Entry subsystem contract was awarded to Lockheed Martin in 
June 2014, and transition was completed in September 2014 with no 
significant issues. The Ground subsystem contract was awarded to 
Northrop Grumman in January 2015 with transition still ongoing. The 
Guidance Subsystem contract was awarded to Boeing in January 2015 with 
transition still ongoing. The Propulsion Subsystem contract is in 
source selection with award anticipated in first quarter 2016 with 
transition anticipated to be complete by the end of 2016.
    The Integrated Support Contract (ISC) has been indispensable in 
assisting the Air Force with sustaining the existing Minuteman III 
fleet. The ISC currently provides approximately 60% of the workforce 
tasked with the development of early acquisition products supporting of 
the Ground Based Strategic Deterrent effort.
    Regarding funding levels, Secretary James has emphasized that 
restoring the health of the nuclear enterprise is an undertaking that 
will require sustained, long-term focus and effort. The Fiscal Year 
(FY) 2016 budget request represents an important step towards that 
goal. It seeks key investments in the sustainment, modernization, and 
recapitalization of the ground-based portion of the Triad, in addition 
to other critical Air Force nuclear weapon systems, supporting 
infrastructure, and nuclear command, control, and communications 
capabilities.
    The Air Force will continue to support nuclear enterprise 
requirements in future budget submissions. As Secretary James and 
General Welsh have stated, because of the severity of cuts mandated by 
the Budget Control Act, no mission area (including nuclear operations) 
would be spared from its impact should the Air Force have to operate at 
sequestration-level funding in FY16.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
